       SENSITIVE BUT UNCLASSIFIED

      United States Department of State
    and the Broadcasting Board of Governors
              Office of Inspector General




            Report of Inspection


     Regional Information

     Management Center

       Fort Lauderdale

  Report Number IT-I-05-03, March 2005




                             IMPORTANT NOTICE
This report is intended solely for the official use of the Department of State or the
Broadcasting Board of Governors, or any agency or organization receiving a copy
directly from the Office of Inspector General. No secondary distribution may be
made, in whole or in part, outside the Department of State or the Broadcasting
Board of Governors, by them or by other agencies or organizations, without prior
authorization by the Inspector General. Public availability of the document will
be determined by the Inspector General under the U.S. Code, 5 U.S.C. 552.
Improper disclosure of this report may result in criminal, civil, or administrative
penalties.



        SENSITIVE BUT UNCLASSIFIED

                           TABLE OF CONTENTS



INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

RESULTS IN BRIEF . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

FINDINGS AND RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

      Support Provided to Posts . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

      Organizational Structure . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8

      Training Center . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9

      Administrator Account Privileges . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10

      Infocenter and Universal Trouble Tickets . . . . . . . . . . . . . . . . . . . . . . . . . . 10

      RIMC Satellite Position at Embassy Bogotá . . . . . . . . . . . . . . . . . . . . . . . . 11

      Nortel Telephone Maintenance Contract . . . . . . . . . . . . . . . . . . . . . . . . . . 11

      Office Management Specialist Position . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

      Florida Regional Center Local Information Technology Change Control

        Board . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

FORMAL RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15

APPENDIX A - OBJECTIVES, SCOPE AND METHODOLOGY . . . . . . . . . . . . . . . 17

                    SENSITIVE BUT UNCLASSIFIED





                               INTRODUCTION

    Embassies and consulates worldwide are increasingly turning to Regional
Information Management Centers (RIMC) for telecommunications, network,
systems engineering, installation, and maintenance support. The RIMC located in
Fort Lauderdale, Florida provides information technology (IT) support to Foreign
Service posts within the Bureau of Western Hemisphere Affairs (WHA), as well as
military installations in Florida through memoranda of agreement. In addition to
regional IT support, RIMC Ft. Lauderdale supports the Department of State’s
(Department) antiterrorism initiatives by providing emergency telecommunications
support to areas of escalating political instability. This report focuses on the results
of the Office of Inspector General’s (OIG) review of RIMC Ft. Lauderdale’s
maintenance and support services. The objectives, scope, and methodology for the
review are discussed in Appendix A.




OIG Report No. IT-I-05-03, Regional Information Management Center Fort Lauderdale, March 2005   1 .

                    SENSITIVE BUT UNCLASSIFIED
      SENSITIVE BUT UNCLASSIFIED




2 .   OIG Report No. IT-I-05-03, Regional Information Management Center Fort Lauderdale, March 2005


      SENSITIVE BUT UNCLASSIFIED

                    SENSITIVE BUT UNCLASSIFIED





                           RESULTS IN BRIEF

     The Bureau of Information Resource Management (IRM) provides telecommu­
nications, network, systems engineering, installation, and maintenance support to
U.S. embassies and consulates worldwide through four regional telecommunications
support centers. RIMC Ft. Lauderdale, one of the four regional centers, provides
support to 49 posts within its geographic region. Management has been effective in
raising the level of service to meet or exceed customer expectations.

    However, there are areas for improvement that should be addressed to ensure
that RIMC Ft. Lauderdale can maintain its current level of customer service. First,
the organizational structure with respect to the digital discipline should be exam­
ined and restructured to prevent overlaps in functional responsibilities with the
operations officer and Regional Information Technology Support Office (RITSO)
sections. RIMC Ft. Lauderdale should negotiate an agreement with the Foreign
Service Institute (FSI) to formalize their relationship regarding funding of the
training center. Also, the Department should grant technicians administrator-level
access to the Department’s OpenNet infrastructure to allow them better diagnostic
capabilities when dealing with customers. RIMC Ft. Lauderdale technicians should
increase their use of the Department’s Infocenter and universal trouble ticket
(UTT) tracking system, to allow for better recording and analysis of systemic
issues.

    Additionally, the Department should establish a satellite branch office with one
or more resident technicians in Bogotá, Colombia to better meet the needs of that
large and expanding mission. Finally, the Department should purchase mainte­
nance or customer support contracts for Nortel switches, to ensure that technicians
have access to the information they need to assist customers in the field.




OIG Report No. IT-I-05-03, Regional Information Management Center Fort Lauderdale, March 2005   3 .

                    SENSITIVE BUT UNCLASSIFIED
      SENSITIVE BUT UNCLASSIFIED





4 .   OIG Report No. IT-I-05-03, Regional Information Management Center Fort Lauderdale, March 2005


      SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED





                                 BACKGROUND

    RIMC Ft. Lauderdale is one of four regional telecommunications support
centers. Through these support centers, IRM provides telecommunications, net­
work, systems engineering, installation, and maintenance support to U.S. embassies
and consulates worldwide. RIMC Ft. Lauderdale is based out of the Florida
Regional Center, a facility housing multiple regional support entities. This location
allows for convenient travel to almost all of the serviced posts within WHA.
RIMC Ft. Lauderdale also maintains a satellite branch office in Embassy Mexico
City that consists of one resident digital technician.

    RIMC Ft. Lauderdale supports 49 embassies and consulates in Central, South,
and North America. This support impacts all post operations by providing guid­
ance for IRM program standardization, digital services, telephone services, infor­
mation system services, radio system services, and telecommunications mainte­
nance and logistical support. RIMC Ft. Lauderdale also operates a training facility
with FSI-certified instructors, which offers courses in advanced information sys­
tems to systems administrators throughout the region. The facility also is a certi­
fied testing center, which allows students to test for certification on-site.

    In addition to providing IT support and training, RIMC Ft. Lauderdale supports
the Department’s antiterrorism initiatives by providing temporary and emergency
telecommunications support to areas of escalating political instability. This sup­
port includes efforts to ensure the viability of emergency communications in areas
of political unrest, such as Port au Prince, Haiti, as well as temporary communica­
tions support for drug interdiction efforts in Colombia. RIMC Ft. Lauderdale
maintains telecommunications equipment packages for use in emergency situations,
which include Safe-Net devices for establishing sensitive-but-unclassified e-mail
capabilities. This emergency support capacity of RIMC Ft. Lauderdale is often
employed to aid posts in the Caribbean following hurricanes.

    RIMC Ft. Lauderdale staffing includes management, senior personnel, and
technicians. The staffing pattern shows 30 direct-hire Americans and three con­
tractors in Ft. Lauderdale, as well as one direct-hire American stationed at the
digital branch office in Mexico City.




OIG Report No. IT-I-05-03, Regional Information Management Center Fort Lauderdale, March 2005   5 .

                    SENSITIVE BUT UNCLASSIFIED
      SENSITIVE BUT UNCLASSIFIED





6 .   OIG Report No. IT-I-05-03, Regional Information Management Center Fort Lauderdale, March 2005


      SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED





    FINDINGS AND RECOMMENDATIONS

    RIMC Ft. Lauderdale provides comprehensive regional information manage­
ment support for the WHA region. Based on customer service questionnaires, the
support has been excellent over the last year, and customer feedback indicates a
high level of satisfaction that has met or exceeded expectations. However, there
are areas for improvement that will be necessary to ensure that the current level of
service continues. Most of these areas involve the consolidation of efforts to
eliminate overlaps in responsibilities. Customer service could be improved by
granting RIMC technicians greater access to Department computer networks.
Finally, gains in efficiency and customer service could be found by expanding the
Nortel systems maintenance contract to include direct access to the Nortel help
desk for RIMC technicians.



SUPPORT PROVIDED TO POSTS
     As part of the survey for this inspection, OIG solicited the 49 posts supported
by RIMC Ft. Lauderdale for feedback on the level of support received, with 29
(59.1 percent) embassies and consulates responding. Of these responses, almost
83 percent indicated that the level of support provided by RIMC Ft. Lauderdale
had been ‘outstanding.’ In fact, while some responses did indicate that certain
disciplines had been less than satisfactory and needed improvement, all of the
respondent posts gave the overall operation of RIMC Ft. Lauderdale at least a
satisfactory rating.

    The current management team has made great strides to revive the reputation
of RIMC Ft. Lauderdale. Previously, RIMC Ft. Lauderdale was regarded as being
reluctant to expend the resources for technicians to travel to post to provide
assistance. As a result, the constituent posts became accustomed to seeking help
elsewhere or simply doing their best to manage. However, the current management
is committed to customer service and is always willing to find the resources neces­
sary to assist posts. Survey responses indicate this positive shift in management
toward a more proactive approach to assisting posts. The new approach has also
had a positive effect on morale among RIMC staff, as most technicians are getting
more opportunities to travel to posts and utilize their skills.


OIG Report No. IT-I-05-03, Regional Information Management Center Fort Lauderdale, March 2005   7 .

                    SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED




      ORGANIZATIONAL STRUCTURE
           RIMC Ft. Lauderdale currently has an organizational structure that creates
      overlaps in functional responsibilities with respect to the digital discipline. The
      current structure includes the digital, RITSO, and operations officer branches. The
      RITSO office includes four information management specialists and a contractor,
      all of which have multiple responsibilities including making site visits to posts to
      provide operational oversight and performing communications security audits. The
      information management specialist personnel are also certified trainers who
      conduct technical classes held at the training center. The operations officer posi­
      tion serves as a separate branch that also performs operational oversight and
      communications security audits, but does not conduct classes. This structure
      creates an overlap in the operational support that RITSO and the operations officer
      are providing.

           There are also overlaps in the functional responsibilities of the RITSO branch
      and the digital branch. The responsibilities of personnel in the RITSO branch have
      become increasingly involved in technical aspects of systems configuration and
      software, which is encroaching on the responsibilities of the digital branch. As a
      result, the digital branch, comprised of the more highly trained information man­
      agement technical specialists, has been relegated more often to basic functions such
      as laying cable during installations, and have been unable to fully use their technical
      skills which include systems configuration. Because of this overlap in functional
      responsibilities, the digital technicians have been unable to maximize their
      effectiveness in their areas of expertise.

          The ultimate goal of RIMC management is to combine the digital and RITSO
      branches into one branch with technicians possessing a comprehensive skill set in
      networking and systems configuration. A separate branch of operations officers
      would assist posts in assessing and improving information management operations.
      Splitting information systems responsibilities between digital technicians and
      operations officers would provide a clear separation of functional responsibilities.


         Recommendation 1: The Regional Information Management Center Fort
         Lauderdale should realign functional responsibilities within the digital branch,
         operations officer position, and Regional Information Technology Support
         Office to prevent overlap of duties. Responsibilities should be split between
         one branch that combines the technical functions of the Regional Information
         Technology Support Office and the digital technicians, and a second branch
         of operations officers that perform operational oversight. (Action: RIMC
         Ft. Lauderdale)


8 .              OIG Report No. IT-I-05-03, Regional Information Management Center Fort Lauderdale, March 2005


                SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




TRAINING CENTER
    RIMC Ft. Lauderdale provides technical training to students--generally Foreign
Service nationals--through four staff members from the RITSO branch that serve
part-time as certified trainers. RIMC Ft. Lauderdale plans their training schedule a
year in advance, in coordination with FSI’s School of Applied Information Tech­
nology, to complement the schedule of courses offered at FSI in Arlington and
Warrenton, and the RIMC in Frankfurt. This helps ensure the same class is not
offered simultaneously at more than one campus and provides students worldwide
with access to a greater variety of available dates in a particular course.

    While the training center is a valuable asset to RIMC Ft. Lauderdale that has
demonstrated its efficacy with high student passing rates, there are still several
organizational considerations that hamper its overall effectiveness. Although
funding for materials is provided by FSI, there is no memorandum of agreement
between RIMC and FSI regarding how the resources are to be used. Given that this
FSI-derived funding is subject to year-to-year budgetary fluctuations, and the fact
that training is a part-time, collateral duty for the RITSO personnel, long-range
planning for classes can be difficult.

    The current model of using RITSO staff as trainers is regarded by RIMC
management as ideal because it allows the trainers to bring a wealth of field
experience to the classroom, while maximizing their time when not on temporary
duty overseas. However, trainers are sometimes left with little office time to
review lesson plans and must generally do any studying to maintain competency on
their own time. Additionally, the fact that the trainers are RITSO personnel means
that if a class is in session, that trainer is unavailable to attend to overseas posts
requiring assistance.

    Finally, the recently constructed training center is underutilized, mostly due to
general budget constraints, which have caused posts to stop scheduling students for
training. In such cases, FSI’s FasTrac distance learning program should be explored
as an alternative because Foreign Service nationals are eligible to receive FasTrac
account passwords.




OIG Report No. IT-I-05-03, Regional Information Management Center Fort Lauderdale, March 2005   9 .

                    SENSITIVE BUT UNCLASSIFIED
                 SENSITIVE BUT UNCLASSIFIED





          Recommendation 2: The Bureau of Information Resource Management, in
          coordination with the Foreign Service Institute and the Regional Information
          Management Center Fort Lauderdale, should develop a memorandum of
          agreement detailing the types and number of training classes that will be
          offered by the Regional Information Management Center Fort Lauderdale
          using funding provided by the Foreign Service Institute. (Action: IRM, in
          coordination with FSI, RIMC Ft. Lauderdale)




       ADMINISTRATOR ACCOUNT PRIVILEGES
           Digital technicians at RIMC currently do not have any administrative authority
       within the Department’s network architecture, except when they perform site visits.
       This creates difficulties in performing remote diagnostics when troubleshooting
       problems over the phone, because they do not have access to tools such as ping
       and trace route. The RIMC Director is currently working with the Enterprise
       Network Management Operations Center to acquire a limited level of administra­
       tor privileges for digital technicians to allow them to perform their duties more
       effectively.


          Recommendation 3: The Bureau of Information Resource Management, in
          coordination with the Regional Information Management Center Fort
          Lauderdale, should provide Regional Information Management Center
          technicians with a level of administrator access to the Department network
          infrastructure sufficient to allow them to troubleshoot post problems.
          (Action: IRM, in coordination with RIMC Ft. Lauderdale)




       INFOCENTER AND UNIVERSAL TROUBLE TICKETS
           RIMC Ft. Lauderdale does not receive many UTT tickets through the
       Infocenter. Most of their constituent posts prefer to call RIMC directly. Telephone
       technicians receive so few tickets directly that when they do they often find that
       their UTT accounts have expired. The general perception is that ‘when it counts,
       you are going to pick up the phone and call the people you know.’ Most customers
       and technicians alike prefer to work directly with each other. Although they
       recognize the value of tracking calls and collecting aggregate data for analysis, they


10 .             OIG Report No. IT-I-05-03, Regional Information Management Center Fort Lauderdale, March 2005


                 SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




do not believe that the UTT system effectively performs this task. On a practical
level, technicians noted that the system takes too long to be useful during emer­
gency situations and is also tedious to enter information into on a daily basis.
Another complaint among technicians was that it could not be used as a knowledge
base because the collected data cannot be searched in any meaningful way.



RIMC SATELLITE POSITION AT EMBASSY BOGOTÁ
    Embassy Bogotá is one of the largest overseas posts in the world, with growing
personnel and IT requirements. RIMC Ft. Lauderdale is finding it difficult to
provide the customer service required by such a large operation from a remote
location. In addition to being better able to serve the needs of Embassy Bogotá
with a resident technician, having forward deployed staff would better position
RIMC Ft. Lauderdale to meet the support needs of the immediate region. Due to
the size of Embassy Bogotá, technicians of all three disciplines are desired, with
digital and telephone being of particular necessity. The creation or transfer of a
RIMC position to Embassy Bogotá has been requested in the post’s 2005 mission
performance plan, and has the support of WHA, IRM, and RIMC Ft. Lauderdale.


    Recommendation 4: The Regional Information Management Center Fort
    Lauderdale, in coordination with the Bureau of Information Resource
    Management, the Bureau of Western Hemisphere Affairs, the Bureau of
    Human Resources, and Embassy Bogotá, should create or transfer digital and
    telephone technician positions to be posted resident at Embassy Bogotá.
    (Action: RIMC Ft. Lauderdale, in coordination with IRM, WHA, DGHR,
    Embassy Bogotá)




NORTEL TELEPHONE MAINTENANCE CONTRACT
    The Department does not currently have a telephone switch maintenance
contract that allows RIMC telephone technicians direct access to the Nortel help
desk. This differs from the type of support technicians they were accustomed to
under the Mitel contract, and they are finding it difficult to find sources of informa­
tion to troubleshoot problems. Currently, there is one person in the Foreign Post
Telephone help desk who has direct access to Nortel engineers and acts as a liaison
for all RIMC locations. RIMC technicians must work through this Department


OIG Report No. IT-I-05-03, Regional Information Management Center Fort Lauderdale, March 2005   11 .

                    SENSITIVE BUT UNCLASSIFIED
                 SENSITIVE BUT UNCLASSIFIED




       contact. Having only one point of contact for much needed technical assistance
       creates delays and frustration in providing assistance to RIMC customers. Foreign
       Post Telephone recognizes the need for RIMC telephone technicians in the field to
       have direct access to the Nortel help desk, and has been pursuing funding for such
       access for two years.


          Recommendation 5: The Bureau of Information Resource Management
          should provide the necessary funding for purchase of the maintenance
          contract to allow direct access for Regional Information Management Center
          technicians to the Nortel help desk. (Action: IRM)




       OFFICE MANAGEMENT SPECIALIST POSITION
            The office management specialist position at RIMC Ft. Lauderdale has respon­
       sibility for a great deal of budget analysis, as well as logistical coordination for 35
       travelers. The position’s responsibilities have grown beyond the normal position
       description for an office management specialist to include more specialization in
       budget and fiscal duties, as well as travel management. Efficiency could be in­
       creased by reassessing position responsibilities to evaluate the need for professional
       staff in the areas of budget and fiscal analysis and travel management, as well as
       the overall need for additional office support staffing.


          Recommendation 6: The Bureau of Information Resource Management, in
          coordination with the Regional Information Management Center Fort Lauder­
          dale and the Bureau of Human Resources, should reassess office support
          position responsibilities and realign staffing as necessary to meet require­
          ments. (Action: IRM, in coordination with RIMC Ft. Lauderdale, DGHR)




       FLORIDA REGIONAL CENTER LOCAL INFORMATION
       TECHNOLOGY CHANGE CONTROL BOARD
           RIMC Ft. Lauderdale currently has no position on or input to the local informa­
       tion technology change control board for the Florida Regional Center. As a result,
       the needs of RIMC technicians, such as having specialized diagnostic software
       installed locally, do not get sufficient consideration or advocacy.

12 .              OIG Report No. IT-I-05-03, Regional Information Management Center Fort Lauderdale, March 2005


                 SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED





    Recommendation 7: The Bureau of Western Hemisphere Affairs should
    ensure that a representative from the Regional Information Management
    Center Fort Lauderdale is included in the Florida Regional Center local infor­
    mation technology change control board. (Action: WHA)




OIG Report No. IT-I-05-03, Regional Information Management Center Fort Lauderdale, March 2005   13 .

                    SENSITIVE BUT UNCLASSIFIED
       SENSITIVE BUT UNCLASSIFIED





14 .   OIG Report No. IT-I-05-03, Regional Information Management Center Fort Lauderdale, March 2005


       SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED





             FORMAL RECOMMENDATIONS

Recommendation 1: The Regional Information Management Center Fort Lauder­
  dale should realign functional responsibilities within the digital branch, opera­
  tions officer position, and Regional Information Technology Support Office to
  prevent overlap of duties. Responsibilities should be split between one branch
  that combines the technical functions of the Regional Information Technology
  Support Office and the digital technicians, and a second branch of operations
  officers that perform operational oversight. (Action: RIMC Ft. Lauderdale)

Recommendation 2: The Bureau of Information Resource Management, in
  coordination with the Foreign Service Institute and the Regional Information
  Management Center Fort Lauderdale, should develop a memorandum of agree­
  ment detailing the types and number of training classes that will be offered by
  the Regional Information Management Center Fort Lauderdale using funding
  provided by the Foreign Service Institute. (Action: IRM, in coordination with
  FSI, RIMC Ft. Lauderdale)

Recommendation 3: The Bureau of Information Resource Management, in coor­
  dination with the Regional Information Management Center Fort Lauderdale,
  should provide Regional Information Management Center technicians with a
  level of administrator access to the Department network infrastructure
  sufficient to allow them to troubleshoot post problems. (Action: IRM, in
  coordination with RIMC Ft. Lauderdale)

Recommendation 4: The Regional Information Management Center Fort Lauder­
  dale, in coordination with the Bureau of Information Resource Management,
  the Bureau of Western Hemisphere Affairs, the Bureau of Human Resources,
  and Embassy Bogotá, should create or transfer digital and telephone technician
  positions to be posted resident at Embassy Bogotá. (Action: RIMC Ft. Lauder­
  dale, in coordination with IRM, WHA, DGHR, Embassy Bogotá)

Recommendation 5: The Bureau of Information Resource Management should
  provide the necessary funding for purchase of the maintenance contract to allow
  direct access for Regional Information Management Center technicians to the
  Nortel help desk. (Action: IRM)




OIG Report No. IT-I-05-03, Regional Information Management Center Fort Lauderdale, March 2005   15 .

                    SENSITIVE BUT UNCLASSIFIED
                 SENSITIVE BUT UNCLASSIFIED




       Recommendation 6: The Bureau of Information Resource Management, in coor­
         dination with the Regional Information Management Center Fort Lauderdale
         and the Bureau of Human Resources, should reassess office support position
         responsibilities and realign staffing as necessary to meet requirements. (Action:
         IRM, in coordination with RIMC Ft. Lauderdale, DGHR)

       Recommendation 7: The Bureau of Western Hemisphere Affairs should ensure
         that a representative from the Regional Information Management Center Fort
         Lauderdale is included in the Florida Regional Center local information tech­
         nology change control board. (Action: WHA)




16 .             OIG Report No. IT-I-05-03, Regional Information Management Center Fort Lauderdale, March 2005


                 SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED





      APPENDIX A - OBJECTIVES, SCOPE
           AND METHODOLOGY


    The objectives of this review were to determine whether supported posts are
receiving adequate maintenance and support services from RIMC Ft. Lauderdale,
to assess whether RIMC Ft. Lauderdale staffing levels and training were adequate
to support posts, and to determine RIMC Ft. Lauderdale’s role in supporting the
Department’s antiterrorism initiatives.

    To meet its review objectives, OIG reviewed documentation from various
sources that provided background information about RIMC Ft. Lauderdale and its
role in providing telecommunications support to posts. OIG also solicited all posts
supported by RIMC Ft. Lauderdale for feedback on the level of support received.
On site, OIG met with officials at RIMC Ft. Lauderdale to learn about its opera­
tions and to obtain information supporting the review objectives.

    The Office of Inspector General’s Information Technology Office performed
this inspection including work in Washington, D.C. between June 14-July 9, 2004,
and at the Regional Information Management Center in Ft. Lauderdale, Florida
between July 12-22, 2004. The major contributors to the report were Lynn Allen,
Mary S. Heard, Matthew J. Ragnetti, and Eric Chavera.




OIG Report No. IT-I-05-03, Regional Information Management Center Fort Lauderdale, March 2005   17 .

                    SENSITIVE BUT UNCLASSIFIED
